0

BECKER GALLAGHER
Briefs

Supreme Court of the United States
United States Courts of Appeals

and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Respondents' Brief in Opposition in 20-177,
Ally Financial Inc. v. Alberta Haskins, et al., was sent
via Three Day Service to the U.S. Supreme Court, and
3 copies were sent via Three Day Service and e-mail to
the following parties listed below, this 30th day of
November, 2020:
Paul Reinherz Quitman Wolfson
Wilmer Cutler Pickering Hale and Dorr, LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6390
paul.wolfson@wilmerhale.com
Counsel for Petitioner

Deepak Gupta

Counsel of Record

Gupta Wessler PLLC
1900 L Street, NW
Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 30, 2020.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

ha¥

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date://:;,;,.,.,,,,,

cwit,<J;._

Notary Public
[seal]

Notary Public, State ol Ohio
My Commisllon Expires
February 14, 2023

